NO. _____________
IN THE
SUPREME COURT OF THE UNITED STATES

NICHOLAS HARRIS, Petitioner
VS.
CALIFORNIA, RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
SIXTH APPELLATE DISTRICT

PETITION FOR WRIT OF CERTIORARI

SIXTH DISTRICT APPELLATE PROGRAM
WILLIAM M. ROBINSON
Assistant Director
State Bar #95951
95 S. Market Street, Suite 570
San Jose, CA 95113
(408) 241-6171
Email: bill@sdap.org

Counsel of Record for Petitioner,
NICHOLAS HARRIS

QUESTIONS PRESENTED
Does California’s Three Strikes Reform Act of 2012 (“the Reform
Act”), as interpreted by California’s Supreme Court, violate the Ex Post Facto
Clause (U.S. Const., Art. 1, § 10) and/or the Due Process Clause of the
Fourteenth Amendment, altering the penal consequences of Mr. Harris’s
convictions for witness dissuasion (Cal. Pen. Code § 136.1) by excluding from
the substantial resentencing benefits of the Reform Act any person whose
“current offense” conviction is for a crime defined as a “serious felony” under
California law as of the operative date of the Reform Act, where said current
offense crime was not a serious felony at the time of its commission?

1

List of Parties
All parties appear in the caption of the case on the cover page.

2

TABLE OF CONTENTS
TABLE OF CONTENTS.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . -iTABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . -vOPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
............................................................2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A.

1997 conviction and sentencing.. . . . . . . . . . . . . . . . . . . . . . . 5

B.

Federal habeas corpus proceeding. . . . . . . . . . . . . . . . . . . . . . 6

C.

Resentencing at the trial court upon remand from federal
court. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

D.

Remand to Trial Court, Sentencing Arguments, Trial Court
Ruling, Ensuing Mandamus Petition and Remand. . . . . . . . . 8

E.

Proceedings After Remand From Mandate Order. . . . . . . . . 10

Statement of the Facts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
REASONS FOR GRANTING THE PETITION.. . . . . . . . . . . . . . . . . . . . 12
CALIFORNIA COURTS VIOLATED HARRIS’S CONSTITUTIONAL
RIGHTS UNDER THE EX POST FACTO AND DUE PROCESS
CLAUSES BY BASING THEIR DENIAL OF RESENTENCING UNDER
THE THREE STRIKES REFORM ACT OF 2012, AS TO HIS
CONVICTION FOR WITNESS DISSUASION UNDER SECTION 136.1,
ON RETROACTIVE CHANGES IN LAW WHICH RECLASSIFIED
THIS CRIME AS A “SERIOUS FELONY” UNDER CALIFORNIA LAW,
WHEN IT WAS PLAINLY NOT A SERIOUS FELONY OFFENSE
WHEN IT WAS COMMITTED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
3

TABLE OF CONTENTS (CONTINUED)
A.

Legal and Procedural Background to the Constitutional
Violations.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

B.

The Denial of Resentencing Based on a Conclusion that
Petitioner’s Witness Dissuasion Conviction is a Serious
Felony Violates the Ex Post Facto Clause. . . . . . . . . . . . . . . 15
1.

The Second Category Violation. . . . . . . . . . . . . . . . . 16

2.

The Third Category Violation. . . . . . . . . . . . . . . . . . 19

C.

The Due Process Dimension of the Ex Post Facto Challenge
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

D.

Under California Law Consistent with the Ex Post Facto
Prohibition and the Due Process Clause, Harris Must Be
Eligible for Resentencing Under the Reform Act as to His
Conviction for Witness Dissuasion. . . . . . . . . . . . . . . . . . . . 25

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

4

TABLE OF AUTHORITIES
CASES
Bouie v. City of Columbia 378 U.S. 347 (1964). . . . . . . . . . . . . . 22,23,24,25
Calder v. Bull, 3 U.S. 386 (1798). . . . . . . . . . . . . . . . . . . . 15,16,18,19,20,23
Carmell v. Texas, 539 U.S. 513 (2000).. . . . . . . . . . . . . . . . . . . . . . . . . 15,16
Harris v. Garcia (N.D. Cal. 2010) 734 F.Supp.2d 973. . . . . . . . . . . . . . . . 6
In re Lomax, 66 Cal.App.4th 639 (1998). . . . . . . . . . . . . . . . . . . . . . . . . . 20
Lynce v. Mathis, 519 U.S. 433 (1997). . . . . . . . . . . . . . . . . . . . . . . . . . 19,20
People v. Hill (1986) 185 Cal.App.3d 831. . . . . . . . . . . . . . . . . . . . . . . . . . 7
People v. Johnson (2015) 61 Cal.4th 674. . . . . . . . . . . 10,14,15,17,23,24,25
People v. Miller (2000) 81 Cal.App.4th 1427.. . . . . . . . . . . . . . . . . . . . . . . 6
People v. Superior Court (Romero) (1996) 13 Cal.4th 497. . . . . . . . . 7,9,10
People v. Williams, 34 Cal.4th 397 (2004). . . . . . . . . . . . . . . . . . . . . . . . . 13
Stogner v. California, 539 U.S. 607 (2003). . . . . . . . . . . . . . . . . . . . . . . . 18
Weaver v. Graham, 450 U.S. 24 (1981). . . . . . . . . . . . . . . . . . . . . . 19,20,21
CONSTITUTIONS
California Constitution
Fourteenth Amendment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,2,22
United States Constitution
Art. 1, § 10. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

5

TABLE OF AUTHORITIES (CONTINUED)
STATUTES
Penal Code
§ 136.1. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5,8,9,10,11,12,13
§ 484.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
§ 487.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
§ 654.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6,7
§ 667.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2,3,4,12,13,17,22
§ 667.5. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
§ 1170.12. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2,3,4,12
§ 1170.126. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2,8,10,11,14,25
§ 1192.7. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3,13
§ 4532.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
§ 12022.6. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1257. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
MISCELLANEOUS
2 R. Wooddeson, A Systematical View of the Laws of England 638 (1792)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

6

OPINIONS BELOW
The unpublished opinion of the California Court of Appeal, Sixth
Appellate District, filed on February 5, 2020, affirming on appeal the
resentencing denial order, appears as Appendix A. The unreported order of the
California Supreme Court, filed April 16, 2020, denying a petition for review,
appears as Appendix B.

JURISDICTION
The judgment of the California Court of Appeal, Sixth Appellate
District, was entered on February 5, 2020. A timely petition for review was
denied by the California Supreme Court on April 16, 2020. The jurisdiction
of this Court is invoked pursuant to 28 U.S.C. § 1257(a).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Article I, Section 10, of the United States Constitution provides, in
pertinent part:
No State shall enter into any Treaty, Alliance, or Confederation; grant
Letters of Marque and Reprisal; coin Money; emit Bills of Credit; make
any Thing but gold and silver Coin a Tender in Payment of Debts; pass
any Bill of Attainder, ex post facto Law, or Law impairing the
Obligation of Contracts, or grant any Title of Nobility.
Section One of the Fourteenth Amendment to the United States
Constitution provides, in pertinent part:
No State shall . . . deprive any person of life, liberty, or property,
without due process of law. . . .
California Penal Code section 1170.126 provides:
Resentencing, Recall of Sentence
(a) The resentencing provisions under this section and related
statutes are intended to apply exclusively to persons presently serving
an indeterminate term of imprisonment pursuant to paragraph (2) of
subdivision (e) of Section 667 or paragraph (2) of subdivision (c) of
Section 1170.12, whose sentence under this act would not have been an
indeterminate life sentence.
(b) Any person serving an indeterminate term of life
imprisonment imposed pursuant to paragraph (2) of subdivision (e) of
Section 667 or paragraph (2) of subdivision (c) of Section 1170.12
upon conviction, whether by trial or plea, of a felony or felonies that are
2

not defined as serious and/or violent felonies by subdivision (c) of
Section 667.5 or subdivision (c) of Section 1192.7, may file a petition
for a recall of sentence, within two years after the effective date of the
act that added this section or at a later date upon a showing of good
cause, before the trial court that entered the judgment of conviction in
his or her case, to request resentencing in accordance with the
provisions of subdivision (e) of Section 667, and subdivision (c) of
Section 1170.12, as those statutes have been amended by the act that
added this section.
(c) No person who is presently serving a term of imprisonment
for a "second strike" conviction imposed pursuant to paragraph (1) of
subdivision (e) of Section 667 or paragraph (1) of subdivision (c) of
Section 1170.12, shall be eligible for resentencing under the provisions
of this section.
(d) The petition for a recall of sentence described in subdivision
(b) shall specify all of the currently charged felonies, which resulted in
the sentence under paragraph (2) of subdivision (e) of Section 667 or
paragraph (2) of subdivision (c) of Section 1170.12, or both, and shall
also specify all of the prior convictions alleged and proved under
subdivision (d) of Section 667 and subdivision (b) of Section 1170.12.
(e) An inmate is eligible for resentencing if:
(1) The inmate is serving an indeterminate term of life
imprisonment imposed pursuant to paragraph (2) of subdivision (e) of
Section 667 or subdivision (c) of Section 1170.12 for a conviction of
a felony or felonies that are not defined as serious and/or violent
felonies by subdivision (c) of Section 667.5 or subdivision (c) of
Section 1192.7.
3

(2) The inmate's current sentence was not imposed for any of the
offenses appearing in clauses (i) to (iii), inclusive, of subparagraph (C)
of paragraph (2) of subdivision (e) of Section 667 or clauses (i) to (iii),
inclusive, of subparagraph (C) of paragraph (2) of subdivision (c) of
Section 1170.12.
(3) The inmate has no prior convictions for any of the offenses
appearing in clause (iv) of subparagraph (C) of paragraph (2) of
subdivision (e) of Section 667 or clause (iv) of subparagraph (C) of
paragraph (2) of subdivision (c) of Section 1170.12.
(f) Upon receiving a petition for recall of sentence under this
section, the court shall determine whether the petitioner satisfies the
criteria in subdivision (e). If the petitioner satisfies the criteria in
subdivision (e), the petitioner shall be resentenced pursuant to
paragraph (1) of subdivision (e) of Section 667 and paragraph (1) of
subdivision (c) of Section 1170.12 unless the court, in its discretion,
determines that resentencing the petitioner would pose an unreasonable
risk of danger to public safety.
(g) In exercising its discretion in subdivision (f), the court may
consider:
(1) The petitioner's criminal conviction history, including the
type of crimes committed, the extent of injury to victims, the length of
prior prison commitments, and the remoteness of the crimes;
(2) The petitioner's disciplinary record and record of
rehabilitation while incarcerated; and
(3) Any other evidence the court, within its discretion,
determines to be relevant in deciding whether a new sentence would
result in an unreasonable risk of danger to public safety.
4

(h) Under no circumstances may resentencing under this act
result in the imposition of a term longer than the original sentence.

STATEMENT OF THE CASE1
A.

1997 conviction and sentencing

In 1997, a jury convicted Harris of two counts of grand theft by false
pretenses (Cal. Pen. Code §§ 484, 487(a)2) and one count each of access card
forgery (§ 484f, subd. (b)), escape from jail (§ 4532, subd. (b)(1)), and
dissuading a witness in furtherance of a conspiracy (§ 136.1, subd. (c)(2)). The
jury also found true the allegation that one of the grand thefts involved a taking
of more than $150,000 in value from the victim. (§ 12022.6, subd. (b).) The
trial court denied Harris’ Romero3 motion and sentenced him to consecutive
sentences of 25 years to life on the two grand theft convictions as well as the
escape from jail conviction. The trial court imposed a concurrent 25 years to

1. As explained below, there were three prior appeals concerning
petitioner Harris’s convictions, sentencing, and resentencing. Petitioner’s
references to the record below are from the record on the final direct appeal
which is the subject of this petition, Sixth District No. H045257, which in
which includes the California Court of Appeal’s unpublished opinion in No.
H041594, to elucidate the procedural history of the case. Parts A and B below
are a verbatim recitation of a portion of the Court of Appeal’s summary from
that opinion.
2. Statutory references are to the California Penal Code unless
otherwise stated.
3. People v. Superior Court (Romero) (1996) 13 Cal.4th 497. . . .
5

life sentence on the conviction for dissuading a witness, and an additional 25
years to life sentence was imposed, but stayed under section 654, on his
conviction for access card forgery. With the two-year enhancement imposed
on one of the grand theft convictions, Harris was originally sentenced to a total
term of 77 years to life. We affirmed his conviction in June 2000. (People v.
Miller (2000) 81 Cal.App.4th 1427. . . .)
B.

Federal habeas corpus proceeding

In 2010, the Northern District of California granted Harris’ petition for
writ of habeas corpus, finding he was “entitled to habeas corpus relief as to his
conviction of one of the two counts of grand theft” because there was
insufficient evidence to support that conviction. (Harris v. Garcia (N.D. Cal.
2010) 734 F.Supp.2d 973, 981.) The federal court held that Harris was not
otherwise entitled to relief and expressly stated his continued incarceration on
his remaining convictions was lawful. With respect to the unsupported grand
theft conviction it ordered, “[T]he conviction and the portion of petitioner’s
sentence based thereon are VACATED. Within 60 days of the date this order
is filed, the [People] shall seek a recalculated sentence from the state superior
court . . . .” (Id. at p. 1018.)

6

C.

Resentencing at the trial court upon remand from federal
court

Upon remand from the federal court, Harris sought to bring a renewed
Romero motion in connection with his resentencing. The trial court concluded
the federal court’s order did not allow for such a motion and refused to
consider it. The trial court dismissed Harris’ conviction for grand theft as
directed but noted that dismissal of that particular conviction removed the
basis for staying Harris’ 25 years to life sentence for access card forgery under
section 654. Accordingly, the trial court imposed a consecutive 25 years to life
sentence on the access card forgery conviction and resentenced Harris to a
total term of 77 years to life.
Harris appealed, arguing the trial court erred by failing to consider his
renewed Romero motion, an argument the People conceded. In a brief
unpublished opinion, we accepted the People’s concession, reversed and
remanded for a renewed Romero hearing and resentencing. (People v. Harris
(Dec. 12, 2012, H036908, H037667) [nonpub. opn.] (the 2012 opinion).) In the
2012 opinion, we quoted People v. Hill (1986) 185 Cal.App.3d 831, 834, 230
Cal. Rptr. 109 (Hill) as follows: “When a case is remanded for resentencing
by an appellate court, the trial court is entitled to consider the entire sentencing
scheme. Not limited to merely striking illegal portions, the trial court may
reconsider all sentencing choices. [Citations.] This rule is justified because an
7

aggregate prison term is not a series of separate independent terms, but one
term made up of interdependent components. The invalidity of one component
infects the entire scheme.”
(CT 149-151, Unpubl. Opin. in No. H041594, pp. 2-4,)
D.

Remand to Trial Court, Sentencing Arguments, Trial Court
Ruling, Ensuing Mandamus Petition and Remand.

Remand to the trial court coincided with the enactment of the Three
Strikes Reform Act of 2012 (“Reform Act”) by the California Electorate. In
pertinent part, this new law eliminated the mandatory 25-to-life sentence for
current offense crimes, as applicable here, which were not classified as serious
felonies, and provided a statutory mechanism, section 1170.126, for persons
already sentenced to life terms under the Three Strikes law to seek
discretionary resentencing.
In a pleading filed May 23, 2014, counsel for petitioner contended that
petitioner was eligible for resentencing under section 1170.126 as a second
striker as to his conviction for violation section 136.1 because that crime was
not classified as a serious felony when petitioner committed it, arguing that
this conclusion was dictated by both settled principles of statutory
construction, and the protections of the state and federal constitutions’ ex post
facto clauses. (CT 1-36) In a separate pleading filed on July 2, 2014, Mr.
Harris, through counsel, made the alternative argument that he was entitled to
8

automatic, non-discretionary sentencing under the amended version of the
Three Strikes law created by the Reform Act because he was effectively being
sentenced for the first time. (CT 49-60) Without addressing the question of
eligibility for resentencing as to the section 136.1 violation, the trial court, over
the prosecution’s opposition, agreed with petitioner’s latter contention,
concluding that it was required to resentence Mr. Harris as if it was the first
time; since all but one of petitioner’s crimes of conviction were for offenses
that were not subject to a life sentence under the Reform Act, the court advised
the parties that it would resentence petitioner as a “second striker” as to all
counts except for the violation of section 136.1, agreeing to a Romero hearing
as to that count. (CT 151-152, Unpubl. Opin. in No. H041594, pp. 4-5.)
The prosecution thereafter petitioned the California Court of Appeal for
a writ of mandamus challenging the propriety of the trial court’s sentencing
orders. A second unpublished opinion issued by the Court of Appeal in No.
H041594 granted the writ of mandate, directing the trial court to vacate its
prior order granting petitioner a new, plenary resentencing hearing. (CT 157158) This opinion concluded that the trial court only had authority under the
limited mandate from the earlier appeal to consider the Romero motion, and
not to engage in a new, full resentencing hearing. (See CT 156, unpub. opin.
in No. H041594, p. 9.)

9

Pertinent to the issue now before this Court, the Court of Appeal further
held, with respect to petitioner’s conviction for violating section 136.1, that,
by virtue of the then-recent decision of the California Supreme Court in
People v. Johnson (2015) 61 Cal.4th 674 (“Johnson”), petitioner was ineligible
for resentencing pursuant to section 1170.126 as to the section 136.1
conviction, but concluded that he could seek resentencing relief under section
1170.126 as to the remaining, nonserious felony offenses for which he was
eligible for resentencing. (CT 156-157, unpub. opn. in No. H01594, pp. 9-10.)
E.

Proceedings After Remand From Mandate Order.

Pursuant to the Court of Appeal’s opinion in H041594, the trial court
on July 21, 2016 ordered reinstatement of the prior resentencing order of April
28, 2011, with an understanding that there would be a Romero hearing in the
near future. (1RT 3-11; CT 160-164)
Following the submission of written Romero pleadings by both parties
(CT 177-201 [prosecution opposition], CT 202-214 [defense motion]), and
receipt of voluminous subpoenaed prison and jail records, the court heard
arguments of counsel and statements by petitioner and family members, then
took the matter under submission. (CT 215; Aug. RT 1-33) On July 20, 2017,
the court denied the Romero request. (CT 223; 2 RT 303-310)

10

On August 10, 2017, following arguments of counsel, the Court
announced its decision as to petitioner’s previously filed petition for
resentencing under section 1170.126. As to the three nonserious, nonviolent
offenses for which petitioner was convicted – excluding his conviction for
violation section 136.1 – the court concluded that Mr. Harris would not pose
an unreasonable risk to the public at the time he would be released, and
granted the resentencing petition as to the convictions for grand theft, access
card forgery, and jail escape in counts 1, 6, and 7. (3RT 603-607)
The court then resentenced petitioner, announcing, first, that “on the
[section 136.1] charge, that sentence of 25 years to life still remains . . .”, and
then imposing second strike sentences as to the remaining counts which totaled
10 years, 8 months. (3RT 608; CT 225-232)
Statement of the Facts
As the issue raised herein involves pure questions of law for which the
facts of petitioner’s underlying offense have no particular relevance, no
summary of the facts of petitioner’s crimes is provided.

11

REASONS FOR GRANTING THE PETITION
CALIFORNIA COURTS VIOLATED HARRIS’S CONSTITUTIONAL
RIGHTS UNDER THE EX POST FACTO AND DUE PROCESS
CLAUSES BY BASING THEIR DENIAL OF RESENTENCING UNDER
THE THREE STRIKES REFORM ACT OF 2012, AS TO HIS
CONVICTION FOR WITNESS DISSUASION UNDER SECTION 136.1,
ON RETROACTIVE CHANGES IN LAW WHICH RECLASSIFIED
THIS CRIME AS A “SERIOUS FELONY” UNDER CALIFORNIA
LAW, WHEN IT WAS PLAINLY NOT A SERIOUS FELONY
OFFENSE WHEN IT WAS COMMITTED.
A.

Legal and Procedural Background to the Constitutional Violations.
In 1997, petitioner was convicted of witness dissuasion, § 136.1.

Because he had two prior “strike” convictions, he received a term of 25 years
to life under California’s Three Strikes law for this conviction, as well a 25 to
life terms for his other felony crimes of conviction, as detailed above. At the
time of petitioner’s conviction, California’s Three Strikes law made a
defendant with two or more strike priors subject to a 25-to-life, third-strike
sentence if he or she was subsequently convicted of any felony, even one
which was not itself a “strike” offense. Former §667(c); former §1170.12(b).
Two subsequent changes of law enacted by the California electorate,
and two decisions by the California Supreme Court, have given rise to the
issue in the present case. The first change occurred after petitioner’s crimes
were committed and after he was sentenced. In March of 2000, the California
Electorate passed Proposition 21, which included a provision expanding the
categories of “serious felony” crimes under California to include, inter alia,
12

“intimidation of victims or witnesses, in violation of Section 136.1 . . .”,.§
1192.7(c)(37), as amended by electorate (Prop. 21) at March 7, 2000 Primary
Election, operative March 8, 2000. Thus, petitioner’s crime of witness
dissuasion, which had not been a “serious felony” under California law when
he committed it, had now been redefined as such.
However, this change in law did not affect the sentence imposed in this
case. For example, petitioner did not receive a “serious felony” enhancement
under section 667(a), the plain language of which requires both a prior serious
felony conviction and a current offense serious felony conviction, § 667(a),
People v. Williams, 34 Cal.4th 397 (2004), precisely because his “current
offense” witness dissuasion crime was not a serious felony when he committed
it and thus, under settled ex post facto principles, such a sentence would have
been unlawful.
The second, more dramatic change in law by the California electorate
came in the November 2012 general election, where the voters adopted the
Three Strikes Reform Act of 2012 (“Reform Act”), a measure intended to
ameliorate the most severe effects of California’s Three Strikes law by, as
pertinent here, making third-strike life sentences unavailable for most
individuals whose “current offense” – i.e., the defendant’s “present” crime on
which the life sentence was imposed, as contrasted to the defendant’s prior

13

strike offenses – was not itself a “strike” offense under California law. The
Reform Act included a provision, section 1170.126, which permitted persons,
like petitioner, who had received life sentences under the former Three Strikes
law, to petition for resentencing if, under current law, they would not have
received a third strike sentence. See § 1170.126(a) & (e)(1).
Mr. Harris petitioned for resentencing as to all of the counts of his
conviction, including the witness dissuasion offense, contending in moving
papers in support of his petition that, consistent with settled principles of ex
post facto jurisprudence, he was eligible because his “current offense”
conviction for witness dissuasion was for a crime which was not a serious
felony when he committed it. In the convoluted proceedings that followed,
summarized above, the California Court of Appeal ultimately directed the trial
court to permit a petition for resentencing to proceed as to all counts of
conviction on which a 25 to life sentence was imposed under the Three Strikes
law except for the conviction for witness dissuasion, basing this exclusion on
the controlling effect of the state Supreme Court’s holding in People v.
Johnson, 61 Cal.4th 674, which held, as a matter of statutory construction, that
the disqualifier from the resentencing provisions of section 1170.126 for a
current offense conviction for a serious felony applies to any current offense
which was a serious felony at the time the Reform Act went into effect in

14

November of 2012.
In his direct appeal in the present case, petitioner raised the ex post
facto challenge presented herein, pointing out that Johnson had not addressed
this constitutional claim, and advanced the parallel due process argument
described below. The state Court of Appeal rejected both contentions in an
unpublished opinion, App. A, and the California Supreme Court thereafter
denied review. App. B.
Petitioner contends a careful review of the pertinent principles of ex
post facto jurisprudence, combined with due process concerns, compels a
conclusion that the controlling law for determining whether the “current
offense” is a serious felony must be the law in effect at the time the crime was
committed, and that this critical determination cannot be based on later
enactments which retroactively expanded the definition of serious felony
crimes to include the criminal conduct engaged in by petitioner.

B.

The Denial of Resentencing Based on a Conclusion that Petitioner’s
Witness Dissuasion Conviction is a Serious Felony Violates the Ex
Post Facto Clause.
As explained below, the ex post facto analysis has two components,

drawing on the second and third categories of ex post facto laws described in
Calder v. Bull, 3 U.S. 386 (1798). As this Court reiterated not long ago in
Carmell v. Texas, 539 U.S. 513 (2000), the Ex Post Facto Clause received its
15

most careful interpretation, followed to this day, from Justice Story’s opinion
in Calder.
Specifically, the phrase “ex post facto” referred only to certain
types of criminal laws. Justice Chase catalogued those types as
follows:
“I will state what laws I consider ex post facto laws, within the
words and the intent of the prohibition. 1st. Every law that makes an
action done before the passing of the law, and which was innocent
when done, criminal; and punishes such action. 2d. Every law that
aggravates a crime, or makes it greater than it was, when committed.
3d. Every law that changes the punishment, and inflicts a greater
punishment, than the law annexed to the crime, when committed. 4th.
Every law that alters the legal rules of evidence, and receives less, or
different, testimony, than the law required at the time of the
commission of the offence, in order to convict the offender.” [Calder,
3 U.S.] at 390 (emphasis in original).
Carmell, 529 U.S. at 522.
As explained below, the change of law at issue here is contrary to both
the second and third Calder categories.

1.

The Second Category Violation.

First, and most obviously, the retroactive alteration of Harris’s witness
dissuasion offense from a nonserious felony to a serious felony under
California law runs afoul of the second Calder formulation of an ex post fact
law because it “aggravates a crime, or makes it greater than it was, when
committed.” Calder, 3 U.S. at 390. It is unassailable that Proposition 21 made
16

petitioner’s crime, witness dissuasion, “greater than it was when committed”
by turning it into a serious felony, a more aggravated genre of crime under
California law, which it plainly was not when it was committed. As noted
above, for example, it would have unquestionably violated the ex post facto
prohibition if petitioner, whose crimes were committed prior to the Proposition
21 changes which converted his current offense crime of witness dissuasion
into a serious felony, had been charged with and received separate five year
“serious felony” enhancements under section 667(a).4
This change of law had no immediate impact on Harris. But when the
Reform Act was passed in 2012, the impact of this new initiative measure,
combined with the prior 2000 initiative measure, Prop. 21, as both were
interpreted by the California Supreme Court in Johnson, was to retroactively
“aggravate” Harris’s current offense witness dissuasion offense from a
nonserious felony into a greater, serious felony crime. This had an enormous
penal consequence: it made Harris ineligible for the benefits of the sweeping
ameliorative changes in law affected by the Reform Act as to one of his counts
of conviction. Instead of being eligible to have his sentence for witness

4. Obviously, as the Court of Appeal opinion points out, this did not
happen in the present case. App. A at 8. However, this point was made only
by way of illustration of a rather obvious way in which the ex post facto clause
would have plainly been violated from the reclassification of Harris’s current
offense witness dissuasion offense into a serious felony.
17

dissuasion reduced to a “second strike” determinate term no greater than 6
years, petitioner remains sentenced to a 25 to life term for this offense.
As this Court made clear in Stogner v. California, 539 U.S. 607 (2003),
the second Calder category applies in a situation where a defendant is
subjected to any new penalty by a retroactive change to a law which makes the
crime committed more severe. In discussing the applicability of the second
category to a California law which purported to revive an extinguished statute
of limitations, Stogner referenced a learned treatise from the time period of the
enactment of our Constitution which characterized as an ex post facto, “a law
that affects punishment by ‘making therein some innovation, or creating some
forfeiture or disability, not incurred in the ordinary course of law.’” Id. at 613,
quoting 2 R. Wooddeson, A Systematical View of the Laws of England 638
(1792). The change of law at issue here does precisely this by creating a new
“disability” upon Harris’s crime, making him ineligible for the benefit of a
punishment reduction provision because his witness dissuasion crime had been
“aggravated” to serious felony status as the result of a legislative enactment
subsequent to the point in time that his crime was committed.
Thus, the change of law at issue here is precluded under the second
Calder category because it “aggravates [Harris’s] crime, or makes it greater
than it was, when committed.” Calder, 3 U.S. at 390.

18

2.

The Third Category Violation.

In perhaps a less obvious sense, the retroactive change at issue here is
also contrary to the third Calder category, which includes “every law that
changes the punishment, and inflicts a greater punishment than that affixed to
the crime, when committed.” Calder, 3 U.S. at 390. One could say, on the one
hand, that the retroactive “aggravation” of Harris’s witness dissuasion crime
to serious felony status did not, strictly speaking result in an increase in his
“term of punishment,” since petitioner’s sentence for this conviction remained,
after passage of the Reform Act and denial of his resentencing petition, 25
years to life.
However, in a more fundamental sense, recognized as pivotal in this
Court’s “third category” ex post facto jurisprudence, the retroactive transformation of petitioner’s witness dissuasion crime into a serious felony
violated the Ex Post Facto Clause in the same sense that retroactive alterations
of conduct credit earning schemes were found infirm by this Court in Weaver
v. Graham, 450 U.S. 24 (1981), and Lynce v. Mathis, 519 U.S. 433 (1997). As
in those cases, the retroactive change here increased Harris’s “effective
sentence” in the same manner the new laws in those cases did, by
“constrict[ing] the inmate’s opportunity to earn early release, and thereby
mak[ing] more onerous the punishment for crimes committed before its

19

enactment.” Weaver, at 35-36, emphasis added.
In this sense, such an alteration of the legal consequences of Harris’s
witness dissuasion conviction parallels the laws found by this Court in Weaver
and Lynce to be contrary to the third Calder category because they retroactively altered a criminal defendant’s entitlement to punishment reduction based
on good conduct. Weaver, 450 U.S. at 35-36. Such a change, this Court made
clear, amounts to an increase in punishment which, if applied retroactively,
violates the Ex Post Facto Clause of the federal constitution. Ibid. A law
reducing such credit entitlements “implcates the Ex Post Facto Clause because
such credits are one determinant of petitioner’s prison term . . . and [the
prisoner’s] effective sentence is altered once this determinant is changed.”
Lynce, 519 U.S. at 445.
Weaver involved a statute which reduced the amount of good conduct
credits that could be accumulated and deducted from a prisoner’s sentence. In
holding that a reduction in the availability of such credits violated the Ex Post
Facto Clause when applied to prisoners whose crimes were committed before
the change in the law, this Court held that “decreasing the amount of good time
credits that can be earned substantially alters the consequences of a completed
crime and changes the quantum of punishment.” In re Lomax, 66 Cal.App.4th
639, 644 (1998), emphasis added, citing Weaver, 450 U.S. at 33. “Thus, the

20

new provision constricts the inmate’s opportunity to earn early release, and
thereby makes more onerous the punishment for crimes committed before its
enactment.” Weaver, at 35-36, emphasis added.
As plainly expressed by the this Court, “[t]he critical question . . . is
whether the new provision imposes greater punishment after the commission
of the offense, not merely whether it increases a criminal sentence.” Weaver,
450 U.S. at 32, fn. 17. Clearly, the same principle applies to the matter before
this Court. Retroactively reclassifying petitioner’s current offense of witness
dissuasion as a serious felony for purposes of eligibility for resentencing under
the Reform Act subjects Harris to greater “effective punishment” – a 25 to life
term for this conviction – than what could have been imposed upon him under
post-Reform Act sentencing based on the date of his offense; and it is equally
clear that he is only in this predicament because of the change of law which
occurred after the commission of his crime, i.e., the March, 2000 enactment
of Proposition 21, which “aggravated” his nonserious felony conviction
offense of witness dissuasion into a serious felony. Akin to Weaver, this
retroactive change in the law which converted his non-serious felony offenses
into serious felony crimes “constricts [Mr. Harris’s] opportunity to earn early
release . . .”, Weaver, at 35-36, under the Reform Act, and thus runs afoul of
the ex post facto prohibition.

21

C.

The Due Process Dimension of the Ex Post Facto Challenge.
As a corollary to the Ex Post Facto violation, the California courts’

interpretation of the two initiative measures in a manner detrimental to Harris
impacts his Fourteenth Amendment due process rights, of which the Ex Post
Facto Clause is a vital part. Bouie v. City of Columbia 378 U.S. 347 (1964).
At the time of his convictions, prior to either of the law-changing initiative
measures at issue here, the state effectively “promised” Mr. Harris that,
whatever other severe consequences would flow from his conviction for
witness dissuasion, this crime was not a “serious” or “violent” felony under
California law, and carried none of the attendant penal consequences of such
a current offense conviction. For example, as noted above, converting his
witness dissuasion crime into a serious felony did not allow the state to further
increase his punishment with separate five-year “serious felony” enhancements
under section 667(a), which are triggered by both a “current offense” serious
felony conviction and prior serious felony convictions, because of that
“promise” and the protection against ex post facto laws.
Under this Court’s due process jurisprudence, ex post facto principles
which disfavor retroactive increases in punishment have been held to apply
where a retroactive change of law is from an unforeseeable judicial
construction of a law, rather than a legislative enactment. Bouie v. City of

22

Columbia, 378 U.S. 347. In Bouie, this Court noted the Calder definition of
an ex post facto law as “one ‘that makes an action done before the passing of
the law, and which was innocent when done, criminal; and punishes such
action,’ or ‘that aggravates a crime, or makes it greater than it was, when
committed.’ Id., at 352, quoting Calder, 3 U.S. at 390. As further explained
in Bouie, “[i]f a state legislature is barred by the Ex Post Facto Clause from
passing such a law, it must follow that a State Supreme Court is barred by the
Due Process Clause from achieving precisely the same result by judicial
construction.” Id. at 352-353.
Here, a change in the law, whether effected by the language of various
initiative-amended statutes or by judicial constructions of them – such as the
one adopted by California’s highest court in Johnson – could not retroactively
aggravate the nature of Mr. Harris’s current offense witness dissuasion
conviction, turning it into a serious felony for punishment purposes when it
clearly not serious felonies when committed. As explained above, the result
of this retroactive transformation is obvious and dramatic, impacting Mr.
Harris’s substantive rights by making him categorically ineligible for a reduction of his life sentence for witness dissuasion under the Reform Act.
The additional requirement of Bouie, that the “judicial enlargement” of
a criminal statute adopted by a court be “unexpected and indefensible by

23

reference to the law which had been expressed prior to the conduct in issue .
. .”, Bouie, 378 U.S. at 900 (internal quotations and citations omitted), is easily
met here. Surely in 1997, when Mr. Harris was convicted of witness dissuasion, he knew he could be subjected to high punishment for this criminal act,
but also knew that it was not then, and never could be, treated by the courts,
as a “serious felony” crime, with all the attendant penal consequences of such
a designation. From this viewpoint, it was entirely unforeseeable, unexpected,
and “indefensible” that a Court, sixteen years later, could decide, based on a
change of law enacted after the crimes were committed, that this witness
dissuasion crime was now a “serious felony” for purposes of making him
ineligible for later-enacted initiative relief from his draconian third strike
sentence.
Looked at from a different angle, the decision in Johnson was itself
unforeseeable and unexpected because, as explained above, it was made
without due regard to settled ex post facto principles which precluded retroactive changes in the law from aggravating a crime or increasing punishment.
Thus, in both these senses, the judicial construction by the California Supreme,
which is contrary to constitutional ex post facto principles, was both
unforeseeable and unexpected.

24

It follows that if this Court concludes that the impactful retroactive
change in the law to Mr. Harris’s detriment is viewed as a consequence of the
California Supreme Court’s construction of the Reform Act in Johnson, rather
than the combined product of the two initiative measures themselves, the same
wrong and remedy are cognizable and subject to correction as a violation of
due process under Bouie.

D.

Under California Law Consistent with the Ex Post Facto Prohibition and the Due Process Clause, Harris Must Be Eligible for
Resentencing Under the Reform Act as to His Conviction for
Witness Dissuasion.
For the foregoing reasons, petitioner submits, the change of law

affected by the combined impact of the post-offense initiative measures in
2000 and 2014, and the state supreme Court’s holding in Johnson, violated the
Ex Post Facto Clause and the due process restrictions of Bouie.
The only constitutionally permissible interpretation of section
1170.126(e)(1) is the one advanced by petitioner below, which employs the
definition of “serious felony” that was in effect when his crimes were committed. Consistent with the prohibition against ex post facto laws and the due
process principles at issue in Bouie, this interpretation would permit Harris to
be resentenced under the Reform Act as to his witness dissuasion conviction
based on the undisputable fact that this current offense was not a serious

25

felony when his crimes were committed.

CONCLUSION
For the reasons stated above, the petition for certiorari should be
granted to review the judgment of the California Court of Appeal in this case,
and to correct the California courts’ failure to recognize and remedy the
constitutional errors complained of herein.
Dated: July 10, 2020

Respectfully submitted,

__________________________
WILLIAM M. ROBINSON
Attorney for Petitioner
Nicholas Harris

26

